<html>
<title> - THE HUDSON RIVER AIRSPACE AND MANAGEMENT OF UNCONTROLLED AIRSPACE CORRIDORS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       THE HUDSON RIVER AIRSPACE 
                           AND MANAGEMENT OF 
                         UNCONTROLLED AIRSPACE 
                               CORRIDORS 

=======================================================================

                                (111-58)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 16, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

52-279 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)

  


                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

RUSS CARNAHAN, Missouri              THOMAS E. PETRI, Wisconsin
PARKER GRIFFITH, Alabama             HOWARD COBLE, North Carolina
MICHAEL E. McMAHON, New York         JOHN J. DUNCAN, Jr., Tennessee
PETER A. DeFAZIO, Oregon             VERNON J. EHLERS, Michigan
ELEANOR HOLMES NORTON, District of   FRANK A. LoBIONDO, New Jersey
Columbia                             JERRY MORAN, Kansas
BOB FILNER, California               SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JOHN BOOZMAN, Arkansas
LEONARD L. BOSWELL, Iowa             SHELLEY MOORE CAPITO, West 
TIM HOLDEN, Pennsylvania             Virginia
MICHAEL E. CAPUANO, Massachusetts    JIM GERLACH, Pennsylvania
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
MAZIE K. HIRONO, Hawaii              CONNIE MACK, Florida
HARRY E. MITCHELL, Arizona           LYNN A. WESTMORELAND, Georgia
JOHN J. HALL, New York               JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               MARY FALLIN, Oklahoma
LAURA A. RICHARDSON, California      VERN BUCHANAN, Florida
JOHN A. BOCCIERI, Ohio               BRETT GUTHRIE, Kentucky
NICK J. RAHALL, II, West Virginia
CORRINE BROWN, Florida
ELIJAH E. CUMMINGS, Maryland
JASON ALTMIRE, Pennsylvania
SOLOMON P. ORTIZ, Texas
MARK H. SCHAUER, Michigan
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)




















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Coyne, James K., President, National Air Transportation 
  Association....................................................     8
Fuller, Craig, President, Aircraft Owners and Pilots Association.     8
Hersman, Honorable Deborah A.P., Chairman, National 
  Transportation Safety Board....................................     8
Kragh, Edward, Certified Professional Controller - Newark Tower, 
  Adjunct to FAA New York VFR Airspace Task Force, National Air 
  Traffic Controllers Association................................     8
Krakowski, Hank, Chief Operating Officer, Air Traffic 
  Organization, Federal Aviation Administration..................     8
Zuccaro, Matthew S., President, Helicopter Association 
  International..................................................     8

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    46
Cohen, Hon. Steve, of Tennessee..................................    47
Costello, Hon. Jerry F., of Illinois.............................    48
Graves, Hon. Sam, of Missouri....................................    53
Johnson. Hon. Eddie Bernice, of Texas............................    55
Mica, Hon. John L., of Florida...................................    58
Mitchell, Hon. Harry E., of Arizona..............................    64
Oberstar, Hon. James L., of Minnesota............................    65
Petri, Hon. Thomas E., of Wisconsin..............................    70
Richardson, Hon. Laura, of California............................    75

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Coyne, James K...................................................    81
Fuller, Craig....................................................    88
Hersman, Honorable Deborah A.P...................................    97
Kragh, Edward....................................................   109
Krakowski, Hank..................................................   129
Zuccaro, Matthew S...............................................   151

                       SUBMISSIONS FOR THE RECORD

Hersman, Honorable Deborah A.P., Chairman, National 
  Transportation Safety Board:...................................
      Animation..................................................    10
      Response to question from Rep. Hall, a Representative in 
        Congress from the State of New York......................   105
Krakowski, Hank, Chief Operating Officer, Air Traffic 
  Organization, Federal Aviation Administration:.................
      Response to question from Rep. Carnahan, a Representative 
        in Congress from the State of Missouri...................    38
      Responses to questions from Rep. Costello, a Representative 
        in Congress from the State of Illinois...................   136
      Response to question from Rep. Hall, a Representative in 
        Congress from the State of New York......................   146

                        ADDITIONS TO THE RECORD

National Business Aviation Association, Ed Bolen, President and 
  CEO:...........................................................
      Written testimony..........................................   155
      Letter to Administrator Blakey.............................   160
New York City Council, Christine Quinn, Speaker, written 
  testimony......................................................   173

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   THE HUDSON RIVER AIRSPACE AND MANAGEMENT OF UNCONTROLLED AIRSPACE 
                               CORRIDORS

                              ----------                              


                     Wednesday, September 16, 2009

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Jerry F. 
Costello [chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order. The 
Chair will ask all Members, staff, and everyone to turn all 
electronic devices off or on vibrate.
    The Subcommittee is meeting today to hear testimony on the 
Hudson River Airspace and Management of Uncontrolled Airspace 
Corridors. Although the gentlemen from New York, Mr. Nadler and 
Mr. Bishop, and the gentleman from New Jersey, Mr. Sires, are 
not Members of the Subcommittee on Aviation, they are Members 
of the Full Committee; and, therefore, I ask unanimous consent 
that they be allowed to participate in today's hearing. They 
have a strong interest in this hearing due to the proximity of 
their districts to the Hudson River corridor.
    Without objection, so ordered.
    I will give a very brief opening statement, then call on my 
Ranking Member, Mr. Petri, for any remarks or opening 
statements that he may have, and then we will hear from other 
Members that may have an opening statement or remarks and go 
right to the witnesses.
    I want to welcome everyone to our Subcommittee hearing 
regarding the Hudson River Airspace and Management of 
Uncontrolled Airspace Corridors. The recent collision between a 
private airplane and a sightseeing helicopter over the Hudson 
River in which nine people died was a tragic accident. The 
Subcommittee offers our deepest sympathies to those who lost 
family members on August the 8th. While the National 
Transportation Safety Board has released preliminary findings 
on the incident, the investigation is ongoing; and no 
conclusion can be made at this time.
    The purpose of this hearing is to receive testimony from 
experts in aviation safety, flight operations, and air traffic 
control procedures that are knowledgeable about the Hudson 
River airspace known as a Class B airspace exclusion area and 
similar corridors around the country. The exclusion area is 
heavily used by helicopters and general aviation airplanes 
transiting through the area or sightseeing.
    Currently, there are voluntary procedures for pilots to 
follow when operating in the exclusion area; and, since 1971, 
millions of aircraft have flown in the Hudson River exclusion 
area without a collision occurring. However, there has been 
many near misses reported. According to the recent FAA 
estimates, there are oftentimes as many as 600 aircraft 
operations per day in this corridor.
    I commend the NTSB and the FAA for undertaking an immediate 
safety review of the procedures governing this airspace, 
including ATC handoff procedures. Similar corridors throughout 
the national airspace system warrant a review as well.
    On August 27th, the NTSB issued five independent 
recommendations to the FAA to improve the safety of the 
airspace. I look forward to hearing from the NTSB Chairman, 
Deborah Hersman, on these recommendations.
    I also commend FAA Chief Operating Officer Hank Krakowski 
for convening the New York Visual Flight Rules Airspace Task 
Force quickly after the accident to examine procedures for 
aircraft operations and identify ways to enhance safety in the 
Hudson River exclusion era. Shortly after the meeting, the task 
force issued eight recommendations to the FAA pertaining to 
airspace realignment, ATC and flight procedures, charts for 
pilots that depict the New York airspace and specific operating 
procedures within the exclusion area, and training and 
educational programs for pilots and controllers.
    One of the recommendation mandates that pilots follow 
standard operating practices, which are currently voluntary, 
within the Hudson River Class B exclusion area. I agree with 
the FAA's decision to move forward with publishing mandatory 
operating procedures, and I am pleased that the FAA issued a 
notice to airmen that temporarily establishes these rules. 
However, we need to ensure that pilots and air traffic 
controllers are adequately trained on these new procedures.
    I am also interested in hearing how sightseeing helicopters 
making multiple takeoffs and landings per day will be separated 
from the path of airplanes transiting through the airspace.
    Several of the witnesses testifying today participated in 
the task force, and I look forward to hearing their 
recommendations in discussing any issues or concerns the 
Subcommittee should be aware of before the FAA acts on a 
rulemaking.
    Before I recognize the Ranking Member, Mr. Petri, for his 
opening statement, I ask unanimous consent to allow 2 weeks for 
all Members to revise and extend their remarks and to permit 
the submission of additional statements and material by Members 
and witnesses.
    Without objection, so ordered.
    The Chair now recognizes the Ranking Member of the 
Subcommittee, Mr. Petri.
    Mr. Petri. Thank you, Mr. Chairman, for calling this 
hearing.
    As I have indicated many times, aviation safety is our 
Subcommittee's top priority; and I know it is the top priority 
of our Full Committee as well. It is vitally important that we 
understand and fully explore any and all safety issues related 
to the operations in the national airspace system.
    Just over a month ago, a Piper airplane and a tourist 
helicopter collided over the Hudson River, killing all nine 
people aboard both aircraft. While the specific causes of this 
tragic accident are still under investigation, it is another 
reminder that, while we have a very safe system, we cannot let 
our guard down or become complacent. I look forward to working 
with the National Transportation Safety Board, the FAA, and 
industry stakeholders to address all the contributing causal 
factors in this accident.
    Hundreds of flights a day from JFK, La Guardia, Newark, and 
Teterboro operate in the New York City airspace, making it the 
busiest on our globe. Maintaining safety in this airspace 
requires a dedicated, focused effort by air traffic 
controllers, operators, and regulators alike.
    The National Transportation Safety Board has taken an 
important first step by releasing its recommendations for 
improving safety in the Hudson River airspace. These 
recommendations include revising air traffic control procedures 
as well as creating a special flight rule area in this 
airspace. I am pleased that Chairman Hersman could join us 
today and look forward to her testimony as she outlines these 
recommendations.
    The air traffic control challenges posed by this congested 
airspace should renew our focus on how accelerating air traffic 
control modernization can help address safety issues. With 
commercial and general aviation air traffic anticipated to 
continue to grow, modernizing our Nation's air traffic control 
system should be a top priority. Ensuring that every aviation 
operator, general as well as commercial, has the opportunity to 
obtain satellite positioning technology could go a long way in 
making aircraft operation safer and more efficient.
    Imagine if the pilot of the Piper had access to the air 
traffic control information right in his own cockpit. He would 
have been alerted to the presence of other aircraft and could 
probably have avoided the collision. We simply cannot afford to 
operate an analog airspace system in a digital world.
    I am looking forward to the testimony and discussion of 
these safety issues; and I actually have, I think, some command 
and control issues as well, who is in charge. I thank our 
witnesses for their participation and contributions to this 
hearing and yield back the balance of my time.
    Mr. Costello. I thank the Ranking Member and now recognize 
the gentleman from New Jersey, Mr. Sires, for any comments or 
opening statement that he may have.
    Mr. Sires. Thank you, Mr. Chairman. Thank you for allowing 
me to participate in today's hearing.
    The recent tragedy between a small plane and a sightseeing 
helicopter over the Hudson River highlights the need for 
improved oversight of aircraft in this area. It is critical 
that this congested airspace be better regulated.
    I represent Hudson County in New Jersey, which borders the 
Hudson River directly across Manhattan. Ellis Island, Liberty 
Island, lies entirely within Hudson County waters. The scenic 
views from New York, New Jersey, as well as the Statue of 
Liberty, attract large numbers of aircraft through the Hudson 
River corridor. On any given nice day, upwards of 600 aircraft 
can be seen passing over the Hudson River. While the vast 
majority of aircraft travels safely through the area, it does 
not alleviate our responsibility to address safety concerns.
    For years, the FAA insisted that it lacked statutory 
authority to regulate airspace below 1,100 feet. While I am 
encouraged to see that FAA has reversed its position, I am 
concerned whether the recent accommodations go far enough to 
prevent further tragedies--fromensuring better handling of 
aircraft between control towers to a comprehensive system for 
regulating flights over 1,000 feet, and improving safety 
standards for commercial sightseeing tour operations.
    In addition to safety concerns, I am also concerned about 
the noise associated with low-flying aircraft. I am sure you 
have received some of my letters regarding the concerns of the 
residents in our area regarding the noise.
    The task force included recommendations on helicopters over 
the Hudson River must fly below 1,000 feet. In the past, the 
number of sightseeing helicopters has exceeded 20,000 a year. 
Having that many aircraft flying at lower altitude creates a 
constant noise nuisance for those in New Jersey living along 
the Hudson River. From my perspective, the FAA's recommendation 
for helicopters seems to simply trade one problem for another.
    Thank you, Chairman, for holding this important hearing and 
allowing me to participate. I look forward to the discussion on 
this issue.
    Mr. Costello. The Chair thanks the gentleman from New 
Jersey and now recognizes the Ranking Member of the Full 
Committee, Mr. Mica.
    Mr. Mica. Well, thank you; and I want to thank Mr. Costello 
for convening this hearing.
    I do want to start out first, before I comment on the topic 
at hand, to express my sincere condolences to the family of 
Bill DeCota. Bill DeCota was among hundreds of our Nation's 
great aviation directors; and Bill was the New York Port 
Authority Director of all of the airports in New York City, 
including a recently acquired Stewart facility.
    I have known him for about a decade. I worked with him when 
I was Chairman of this Subcommittee. He passed away last 
Friday, September 11. The irony of that day and that passing is 
something that I just--I can't believe.
    When I became Chairman in early 2001, Neil Levin, who Levin 
who had been the Legislative Director of Senator Al D'Amato 
when I was Chief of Staff for Senator Hawkins from Florida, a 
good friend, they invited me to come up to New York as the 
Chairman to look at the airspace and the congestion and 
problems they faced. The New York Port Authority controlled all 
of the airports. So Neil was the Director. The Director of the 
airports was Bill DeCota.
    And I went up about 7 weeks before. It was in August of 
2001. I spent about a half a day at each airport.
    On the Monday after that weekend, we had about a dozen 
Members of Congress who came up to the New York Port Authority 
headquarters. We were in the World Trade Center. The Port 
Authority owned the World Trade Center. We conducted a hearing; 
and, afterwards, several of us were invited by Bill DeCota and 
Neil Levin to have lunch in a conference room which was 
adjacent to the Windows of the World restaurant that the Port 
Authority kept for meetings and their own purposes.
    On that day, on that Monday, we left Bill DeCota, we left 
Neil Levin, many who helped us. Unfortunately, on the morning 
of September 11, Neil Levin and many who helped us, with the 
exception of Bill DeCota, were all in that same room; and they 
were all killed in the attack. Bill DeCota, ironically, was in 
Montreal for an aviation conference; and he did not die on that 
day. But some 8 years later, the good Lord took him away from 
us. It just an incredible irony of fate.
    He was one of the finest human beings that I knew in the 
whole industry, dedicated day and night to his job and safety 
of operations and efficient operations in probably the most 
difficult setting of any aviation operations in the world. So 
we will miss him and, again, our condolences.
    Again, I appreciate a moment to speak about Bill and 
remember him in the record; and I am going to put a statement 
in the record today.
    This hearing is apropos. It is important oversight. That 
was a tragedy. We were very fortunate we did not have a tragedy 
earlier in the year with the U.S. Air flight that landed safely 
in the Hudson.
    As the Ranking Member has brought up, our Ranking Member 
and Mr. Costello, and you will hear also from Mr. Coyne and 
others, we need 21st century technology. Those who may have not 
functioned well--and this is still under investigation, so we 
don't want to jump the gun--but if people did not operate 
properly or were inattentive to duty or complacent in their 
work, they need to be held accountable. The investigation will 
reveal that.
    My final concern is that New York airspace has been under 
redesign. I was up there 8 years ago to look at the congestion, 
the problems. The New York airspace accounts for about 80 
percent of all our chronically delayed flights. The corridor 
that is in question here isn't exactly part of that redesign, 
but it is affected by the redesign, and we should have good 
rules in place for operation in that corridor of small aircraft 
or charter aircraft. So we have got to get resolved problems 
that have emanated from the New York airspace and that corridor 
in the best interests of safety of the public and move forward. 
That is our chief responsibility in this Subcommittee and 
Committee, so I look forward to working with you.
    And, again, I appreciate the extra time to remember Bill 
DeCota at this hearing this morning. Thank you.
    Mr. Costello. The Chair thanks the Ranking Member and now 
recognizes the gentleman from New York, Mr. Nadler.
    Mr. Nadler. Thank you, Chairman Costello and Ranking Member 
Petri, for holding this hearing and for allowing me to 
participate in today's proceedings.
    As you know, the Hudson River corridor is partly in my 
district. I share it with Mr. Sires. So this is an issue that I 
have been working on for a very long time, and it is of great 
concern to me and to many New Yorkers.
    After many years of pleading, I am pleased to see the FAA 
finally take action to regulate--begin to regulate this 
congested airspace, but I fear that the steps being taken are 
simply not enough. For at least 10 years, I have been demanding 
regulation of the helicopter industry in New York.
    In 1999, after receiving numerous complaints from 
constituents about helicopter traffic, I called on the FAA to 
regulate our airspace. The FAA responded they lacked the 
statutory authority to regulate airspace below 1,100 feet. 
Subsequently, we got a study authorized to analyze the impacts 
of helicopter traffic, but the events of 9/11 put the topic of 
helicopters temporarily on hold.
    Over the last 2 years, we have redoubled our efforts to get 
the FAA to regulate our increasingly crowded airspace. We in 
fact met with the FAA to discuss this issue as recently as July 
and then a follow-up meeting scheduled for late August, when it 
was scheduled well before the terrible crash. Throughout this 
entire time, including in July, the FAA insisted to us that it 
lacked the statutory authority to regulate the airspace in the 
New York City corridor below 1,100 feet.
    Obviously, this claim was not true, as we kept telling them 
it was not true.
    I am gratified that, after the crash, the FAA has finally 
reversed its position and now agrees that it has statutory 
authority to regulate this airspace. It is tragic and 
absolutely unacceptable that it took nine deaths to produce 
this belated concession on the matter of clear law. The midair 
collision has provided the impetus for action, but the 
congestion in New York airspace is a widespread problem beyond 
this one incident.
    I support the measures FAA has proposed to improve 
operating procedures for pilots in the area, but they are 
simply not enough. For example, the FAA will develop and make 
available training for pilots and controllers in the Hudson 
River exclusion area. But why is this training voluntary? We 
require training for pilots in the Washington, D.C., area. Why 
isn't the FAA mandating training for anyone that flies in the 
New York area, especially given the density, security 
sensitivity and complexity of New York's airspace?
    More importantly, why has the FAA not taken action to 
address the main problem of congestion? By the FAA's own 
estimates, there are about 600 aircraft occupying this airspace 
on a typical good weather day. Why doesn't the FAA limit the 
number of flights, at least until satellite-based technology is 
available to track and manage traffic?
    The FAA has proposed stratifying airspace, with local 
aircraft like air tours all flying below 1,000, essentially 
allowing the same number of flights but shrinking the space 
that they are allowed to fly in. I have referred to the Hudson 
River as the Wild West because of the appearance that this 
heavily used and the congested airspace is a free-for-all 
without any regulation or control whatsoever and too much 
uncontrolled traffic to be able to operate safely in the 
corridor. Under the FAA plan, it will would still be the Wild 
West, just in a more constrained geographic area. I fear this 
could actually make the situation worse, and it will certainly 
exacerbate noise and safety concerns.
    If there is any good news in all of this, it is that there 
is technology out there which could allow better management of 
aircraft such as the ADS-B system, a component of NextGen that 
is a satellite-based GTS detection system. ADS B is not yet 
operational, but the FAA should give priority to congested 
areas and potentially use New York as a test area for earlier 
implementation than its proposed 2010 deadline.
    In the meantime, the FAA should consider limiting, if not 
banning, flights below 1,100 feet, certainly tourist flights, 
which serve no real function except for commercial profit. And, 
contrary to the Mayor, I do not believe that any substantial 
number of tourists are not going to come to New York and harm 
the tourism industry because of a lack of helicopter flights. 
But certainly there should be a limit or perhaps a ban on 
flights below 1,100 feet until these radar systems are 
available to track them.
    Thank you again for holding this hearing and for permitting 
me to participate. I look forward to hearing from the witnesses 
and to working with all of you to improve the safety of New 
York's overcongested airspace.
    I yield back.
    Mr. Costello. The Chair thanks the gentleman from New York 
and now recognizes the other gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Chairman Costello and Ranking Member 
Petri, and thank you to all of our witnesses for being here 
today to discuss this important topic.
    I also would like to offer my condolences to the families 
of those who died in the August 8th crash over the Hudson.
    My district spans the Hudson River north of where the 
accident took place, but many of my constituents work in New 
York and commute to New York, and some of them use air service 
in the process of doing so.
    I am pleased that the FAA responded quickly to the crash, 
convening a panel of stakeholders together with the NTSB to 
devise some changes to the management of the Hudson River 
corridor airspace to improve safety. I am still reviewing the 
proposals put forward by the task force, but I am optimistic 
that positive changes will result from this process.
    My foremost concern is why does it always seem to take a 
fatal accident to motivate the FAA to implement the NTSB 
recommendations? This Committee's transcripts are filled with 
instances where an accident occurs, we hold a hearing and then 
determine what happened and how it could have been prevented, 
only to learn that the NTSB has already made recommendations, 
in some cases several years prior, that if implemented would 
have saved lives.
    I should note that this phenomenon is not limited to the 
FAA. This summer's Metro crash here in D.C. showed that there 
is no monopoly in failure to heed NTSB's warnings and 
recommendations.
    So, once again, thank you to the Chairman for holding this 
hearing. Thank you to all of our witnesses. I look forward to 
your testimony, to working together to make the skies of New 
York and the entire country safer.
    I yield back.
    Mr. Costello. The Chair thanks the gentleman and would ask, 
any other Member wanting to make an opening statement or 
comments?
    If not, the Chair will recognize the panel of witnesses at 
this time: the Honorable Deborah Hersman, who is the 
Chairperson of the National Transportation Safety Board; Mr. 
Hank Krakowski, who is the Chief Operating Officer of ATO with 
the FAA; Mr. Craig Fuller, who is President of the Aircraft 
Owners and Pilots Association; Mr. Matthew Zuccaro, who is 
President of the Helicopter Association International; Mr. 
Edward Kragh, who is a Certified Professional Controller, 
Newark tower; and Mr. James Coyne, who is the President of the 
National Air Transportation Association.
    I would advise all witnesses that we would ask you to 
adhere as closely as possible to the 5-minute rule.

  TESTIMONY OF THE HONORABLE DEBORAH A.P. HERSMAN, CHAIRMAN, 
  NATIONAL TRANSPORTATION SAFETY BOARD; HANK KRAKOWSKI, CHIEF 
 OPERATING OFFICER, AIR TRAFFIC ORGANIZATION, FEDERAL AVIATION 
 ADMINISTRATION; CRAIG FULLER, PRESIDENT, AIRCRAFT OWNERS AND 
 PILOTS ASSOCIATION; MATTHEW S. ZUCCARO, PRESIDENT, HELICOPTER 
ASSOCIATION INTERNATIONAL; EDWARD KRAGH, CERTIFIED PROFESSIONAL 
CONTROLLER - NEWARK TOWER, ADJUNCT TO FAA NEW YORK VFR AIRSPACE 
 TASK FORCE, NATIONAL AIR TRAFFIC CONTROLLERS ASSOCIATION; AND 
     JAMES K. COYNE, PRESIDENT NATIONAL AIR TRANSPORTATION 
                          ASSOCIATION

    Mr. Costello. At this time, the Chair recognizes the 
Chairperson of the NTSB, the Honorable Deborah Hersman.
    Ms. Hersman. Good morning, Mr. Chairman, Ranking Member 
Petri, and Members of the Committee. On behalf of the NTSB, I 
would like to extend our condolences to all those who lost 
loved ones in this accident.
    And, Mr. Chairman, with your concurrence, I would like to 
show an animation today during my testimony. I will go over the 
5- minute time limit, but I think the Committee will find it of 
interest. This animation shows the events leading up to the 
August 8th, 2009, midair collision of a Piper Lance and 
Eurocopter AS350.
    The collision occurred in the Class B exclusion area over 
the Hudson River. There were three fatalities on the private 
aircraft and six fatalities on the helicopter. Neither aircraft 
was equipped with a cockpit voice recorder, a flight data 
recorder, nor were they required to be equipped. I would like 
to emphasize that this is still an ongoing investigation and 
that there is significant work to be done by our staff.
    My testimony today will be limited to the factual 
information that we found thus far. I will not provide any 
analysis, draw any conclusions, or establish the cause of this 
accident today.
    We have already identified some early issues of concern. 
They prompted us to issue a number of safety recommendations 
which you all have referenced, and I discuss those in more 
detail in my written presentation.
    I would like to restate that we have not determined the 
cause of the accident, the role of any individuals, mechanisms, 
or organizations who might have been involved.
    The animation that I am about to show has been created by 
our staff using preliminary radar data and air traffic control 
tapes from the FAA. Our staff are represented today by Ms. 
Alice Park and Ms. Christy Spangler, and I would like to 
recognize them.
    This is a major effort for our team. They have worked the 
last few weekends to be able to complete this animation in time 
for today's hearing. On the animation you are going to see some 
transmissions that are attributed to the pilot of the accident 
aircraft. The accident airplane, you will see that reflected as 
mike charlie, the Teterboro controller and the Newark 
controller. However, the audio track is only from the Teterboro 
Tower.
    A witness reported that the accident helicopter made 
position reports over the common traffic advisory frequency, 
but that frequency is not recorded. Also noted on the animation 
is a nonpertinent call that was made on a landline by the 
Teterboro controller to operations at Teterboro.
    The animation begins after the Piper takes off from 
Teterboro and appears on radar. The Teterboro Airport is going 
to be at the top left on the screen, and it will be highlighted 
by a white ring.
    Can you please start the animation?
    [Animation is shown.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The exclusion area provides a passageway through the Class 
B airspace permitting aircraft to fly north and south along the 
Hudson River between approximately the George Washington Bridge 
to the north and the Verrazano-Narrows Bridge to the south 
without authorization from air traffic controllers. The 
exclusion area extends from the surface of the Hudson River up 
to 1,100 feet.
    As seen in the animation, the airplane flew southbound 
until the local controller instructed the pilot to turn left or 
southeast and join the Hudson River.
    In a moment, the Teterboro controller will instruct the 
Piper to change frequencies and contact the Newark controller.
    Our review of other tapes indicate the pilot read back an 
incorrect frequency and did not contact Newark before the 
accident. The accident helicopter departed from the West 30th 
Street heliport about 11:52 for a 12-minute tour. The first 
radar target for the accident helicopter was detected by the 
Newark radar when the helicopter was west of the heliport.
    The following is an animation of the final flight path of 
the two aircraft based on radar data. The accident helicopter 
appears on the lower left side and is highlighted by a white 
circle. The helicopter continues climbing southbound until the 
collision occurred at about 1,100 feet.
    These images were taken by ground witnesses.
    Mr. Chairman, this concludes my testimony, and I would be 
pleased to answer any questions.
    Mr. Costello. The Chair thanks you and the members of your 
staff for pulling this together.
    The Chair now recognizes Mr. Krakowski.
    Mr. Krakowski. Thank you, Mr. Chairman, Ranking Member 
Petri. Thank you for inviting us to testify about what FAA has 
done since the accident on August 8.
     We would also like to say that we also grieve over the 
loss of the family members on that airplane and also of Bill 
DeCota as well, who was clearly someone we worked with at FAA 
quite a bit.
    I think the best way to describe my testimony is to also 
use some visual aids, and you have all been provided a packet 
of information.
    The first two pages are the eight specific recommendations 
that came out of the task force which was convened a week after 
the accident. Once we looked at the data, we saw are we saw a 
clear need to get the stakeholders involved, including the 
NATCA controllers, to help us sort out what improvements are 
appropriate for the airspace.
    So if we could go to Chart 1, which is the third document 
in your package. This is not quite as detailed a 
representation, but it shows you approximately where the 
accident occurred over the Hudson River, and this happened at 
1,100 feet.
    So keeping that in mind, if we go to Chart 2, this is a 
side view, looking from the west side of the Hudson River 
looking east toward Manhattan. This is a side view of the 
airspace and how it is organized in its current configuration, 
a configuration that has basically been this way since 1971. 
The most important thing to know about is Class B airspace, 
which is positive controlled airspace, all aircraft in that 
airspace has to be under positive control of a controller and 
radar. The primary purpose of Class B airspace is to protect 
airliners at the three large airliner airports. And that is 
what the purpose of Class B airspace always was. It was never 
set up to control general aviation traffic, other than keeping 
them properly separated from the airliners.
    A couple of things that you will notice about the Class B 
airspace is that it has different altitudes at different parts 
in the river. At some points, it is 1,100 feet; at other 
points, it is 1,500 feet. One of the things we found out is 
that for aircraft that transitions, in and out of the airspace, 
there is some frequency confusion: What frequency should I be 
on, talking to the controller? Or should I be talking to the 
other airplanes on the common frequency? So we saw that as an 
opportunity.
    This has been regulated airspace, by the way. Even though 
the term "uncontrolled" is used a lot, it is ``uncontrolled'' 
in terms of a controller actually controlling the airspace. It 
is regulated with procedures and regulations and has been 
regulated basically forever. But you do see a lot of mixing of 
traffic, helicopters doing their sightseeing tours or medical 
evacuation or police missions, aircraft flying through the 
area, changing altitudes, seaplanes even landing up and down 
the Hudson.
    And I think what is notable is that you will notice that 
the air speeds and ground speeds of the aircraft are 
significantly different. An airplane that is maneuvering will 
typically be going slower over the ground or a helicopter for 
sure would be going slower, with faster moving transient 
aircraft going up and down the river. So we found that 
interesting.
    So if we go to the next chart, which is an overhead view, 
again, of the current configuration, we also saw something 
interesting looking at the radar data: that aircraft coming off 
of Teterboro, airplanes flying south down the river, airplanes 
flying north up the river, all mixed with the helicopter, 
seaplane, and local traffic. And what was interesting when we 
looked at the radar data is many of the aircraft were at 1,100 
feet, which is the highest they can go in the area.
    So we thought that that was an area of opportunity. Could 
we do something altitude-wise to separate the different 
operations better?
    So over a 2-week period the task force went to work. Three 
of the organizations that served on the task force are with us 
today; and the recommendations are as follows, if we could go 
to Chart 4.
    One of the things that we thought was important is to 
create consistency of the Class B airspace. If you recall, it 
was 1,100 feet or 1,500 feet. We flattened it out to 1,300 feet 
so aircraft will know which frequency to be on, when you are 
talking to a controller, when you are not talking to a 
controller, which results in a lot less handoff problems for 
the controllers, a lot less workload for the pilots.
    Of course, aircraft above 1,300 feet would be under 
positive control of the controllers. Aircraft under 1,300 feet 
would still be in visual flight rules, but we are also 
mandating a separation of overflight traffic, which is 
typically faster-moving traffic from local operations doing the 
tour business or photo shoots or police missions, whatever. So 
there was a general feeling that by segregating the aircraft 
speed types of the different operations was the right approach.
    The other thing is all aircraft under 1,300 feet would be 
on one common frequency making position reports to each other 
at specified places along the river, which should increase 
situational awareness for all traffic.
    I would like to point out that many of these procedures are 
the very procedures we use at places like the Oshkosh Air Show, 
which has over 3,000 flights a day; and these are the same 
techniques we use to create a safe operation up there every 
year.
    And, finally, the last chart, Chart 5, is an overhead view 
of the changes we are recommending.
    First, you will note that aircraft traveling south on the 
river, we are going to ask them to favor the west side of the 
river. Aircraft traveling north favor the right side. And you 
will also notice that those airplanes overfly the local 
aircraft as well, lights on, talking to each other, good 
situational awareness. And we think that these regulated 
changes and the two regulatory changes that are necessary are 
the Class B airspace change and the pilot procedures, all 
scheduled to come together and be in effect on November 19.
    I look forward to your questions. Thank you for allowing me 
to testify.
    Mr. Costello. The Chair thanks you, Mr. Krakowski, and now 
recognizes Mr. Fuller.
    Mr. Fuller. Mr. Chairman, good morning, and Ranking Member 
Petri and Members of the Committee. It is a pleasure for me to 
be here on behalf of AOPA and our 415,000 members.
    I privately expressed our concern to the families who were 
lost in this accident. We had one of our members who was lost. 
I publicly would do so again today. It is a tragedy that brings 
us together.
    But I also think it is important to recognize the good work 
of NTSB and particularly the FAA. We were pleased to be part of 
the process of immediately evaluating the circumstances in New 
York and the situation around this accident. We had one of our 
people sequestered for a couple of weeks to intensely look at 
this with others in the aviation community.
    And I think it is great that this oversight session is 
taking place, but I think we should recognize that the FAA 
really gave us all a forum to take a very hard look at the 
traffic in that area, how it is utilizing this airspace, and 
what we can do to enhance and improve safety.
    I am not going to repeat the remarks I submitted. I thought 
I would try to be responsive to some of the comments that have 
been made.
    We had an interesting session last night with our AOPA Air 
Safety Foundation which immediately, upon receiving the 
recommendation, structured a flight training program, if you 
will, and went to Newark where 350 pilots were at the session. 
Another 200 people were online. I think it probably is a 
prelude to some of the comments we will hear. It was a very 
constructive dialogue.
    I don't need to tell the members from the area that pilots 
in that area are passionate about flying in that airspace to 
see the incredible views, to transit the area; and they 
desperately want, as do I, to keep that airspace open and 
available. I think the recommendations do that, and I think 
they do enhance the certainty of where you should be flying if 
you are in the airspace.
    I know the airspace is referred to as "uncontrolled." That 
is kind of a technical term, and that was explained a little 
bit ago.
    Frankly, this airspace for pilots--and I have flown for 42 
years--is one of the most heavily regulated sections of 
airspace in the U.S. The fact that we have Class Bravo airspace 
around the heavily used airports to ensure that instrument 
aircraft and commercial aircraft are separated from aircraft 
flying visual flight rules does not mean the aircraft flying 
visual flight rules are not regulated. They are flying safely 
through corridors, through passageways that keep them separated 
from other aircraft.
    Pilots train regularly. We have to get reviewed every 2 
years. Pilots who fly in this area review this airspace.
    The improvements in the charts I think that have been 
referred to will make a big difference. I used to fly through 
and live under the corridor in Los Angeles, and I used it all 
the time quite safely.
    Honestly, when I fly in New York, I typically fly IFR, and 
that provides for separation. But I think the choices that many 
pilots make are the right choices for them to transit that 
area.
    I would also caution against the problem of the unintended 
consequence, the problem of saying, well, let's close down this 
airspace because we don't like the way it is being used because 
it will send hundreds of people around the Class Bravo 
airspace. It may not be a concern that it uses more fuel, but 
it will put other aircraft in areas where they are not now 
flying when in fact for decades this airspace has been used 
safely.
    Also, I want to say a word about the controllers. I do fly 
in the airspace a great deal. Probably the most challenging of 
the alternatives, if I was taking off from Teterboro tomorrow 
morning on instrument flight rules, I know I would have 
separation. If I took off intending to fly the corridor and the 
weather permitted it, because you have to have certain 
requirements before you can use that flyway or corridor, I 
would have a certain plan, and I would know what frequency to 
be on and when to talk. If I chose the alternative, which is a 
good alternative used hundreds of times, of taking off and 
hoping to get cleared through Class Bravo airspace, I would 
know the controllers would make every effort to accept me and 
give me an altitude and monitor my flight.
    But the plans can change. It is the one course of action 
where plans can change. Because you might be sent into the 
corridor. You might be cleared into the airspace. They might 
not be able to take you.
    And I just want to say that my experience flying in that 
area, I think we have some of the best-trained controllers and 
the most accommodating that we work with; and that is very 
helpful, too.
    We do stand ready to continue our efforts to enhance the 
training and to support these recommendations.
    I look forward to any questions you may have.
    Mr. Costello. The Chair thanks you, Mr. Fuller, and now 
recognizes Mr. Zuccaro.
    Mr. Zuccaro. Good morning, Chairman Costello and Mr. Petri, 
Ranking Member, and Chairman Oberstar.
    I am here today in my capacity as President of the 
Helicopter Association International, whose 3,000 members, 
inclusive of 1,600 member companies, fly 5,500 helicopters 2.5 
million flight hours a year.
    On a more personal note, I am also here as a professional 
career pilot and flight instructor for both helicopters and 
airplanes who has spent almost 30 years flying and managing 
aircraft operations within the New York City airspace, to 
include tour operations, scheduled helicopter airline service, 
airborne law enforcement, and charter and corporate, as well as 
New York City heliport and airport management responsibilities. 
During this period, I also represented the local affiliated 
organization, Eastern Region Helicopter Council.
    Make no mistake about it. There was a tragic accident on 
Saturday, August 8, in which nine people lost their lives. Our 
heartfelt sorrow and deepest sympathy goes out to those 
involved.
    One of those aircraft, a helicopter, was operated by one of 
our members. On that day, a member of our family within the 
helicopter community, Captain Jeremy Clark, a professional, 
dedicated helicopter pilot, departed the Manhattan West 30th 
Street heliport just as he had done so many times before, with 
the intent, as always, to provide a safe, inspiring aerial tour 
and display the majesty of New York City to his passengers.
    On that same day, Steven Altman, a businessman, an aircraft 
owner, general aviation private pilot, had taken off from 
Teterboro Airport in his personal aircraft accompanied by 
family members for I am sure what he envisioned would be an 
enjoyable flight on a beautiful day to Ocean City, New Jersey. 
As you know, neither of these pilots completed their respective 
flight. A tragedy indeed.
    As I have testified before the Committee previously, my 
sincere belief is that one accident anywhere of any kind is one 
accident too many. And in the memory of those who died, we can 
and should strive to make operations in the Hudson River 
corridor even safer than they currently are.
    In an effort to accomplish this, I believe we must first 
look at the history associated with the environment. I would 
note that I served on a previous airspace task force group in 
1983. The recommendations of that task force enhanced over the 
years formed the basis of the current practices and procedures 
that are utilized to this date in the corridor. We have 
provided a safe and operational efficient environment that 
accommodated millions of flights over that 26-year period since 
that study. Accordingly, I believe we should be cautious of an 
overreaction and should respond with a reasoned, well-thought-
out approach that will actually enhance the safety. I sincerely 
believe that the FAA recommendations are well-reasoned and 
sound in nature and will do that.
    I am honored to have served on the airspace task force 
committee that was just established by the FAA. I am not going 
to repeat the details, because those will be covered by others 
and have been already. And I would say that they are sound and 
sensible and would enhance safety.
    I am also pleased to report that the resulting FAA 
recommendations are supported by HAI, other associations, and 
are very similar to the NTSB-issued recommendations.
    In coordination with the FAA, the NTSB, and other 
associations, HAI stands ready to develop and promote an 
extensive educational training program relative to this 
airspace. It is crucial for the pilots to know not only the 
airspace options but what is expected of them when they are in 
that airspace.
    Admittedly, none of these recommendations on its own is a 
silver bullet. There are no silver bullets, and I wish there 
were. However, each of these recommendations is a sensible, 
rational, well-thought-out element and, when considered in a 
package, they will make a real difference.
    Mr. Chairman, Members of the Committee, I can assure you I 
don't consider myself a cowboy, and I don't view that airspace 
as Wild west. I would not have spent the majority of my adult 
life flying and managing operations in that airspace if I 
thought for one second it was truly unsafe. Nor do I believe 
the thousands of other pilots that operate there would fly in 
it if they thought it was not safe.
    In closing, I would be remiss if I did not acknowledge the 
high-priority fast track initiative and excellent work by the 
FAA which will result in these new procedures being in place by 
November. We applaud and support their efforts. I anxiously 
await the investigative work and associated final 
recommendations to be delivered by the professional and 
dedicated staff of the NTSB.
    This is how the system is supposed to work, and we are 
honored and pleased to be part of this initiative. HAI and our 
affiliate, the Eastern Region Helicopter Council, look forward 
to working with the Subcommittee, the agencies, and other 
interested parties to ensure that the highest level of safety 
within this airspace is achieved.
    Thank you very much, and I am prepared to answer any 
questions.
    Mr. Costello. The Chair thanks you Mr. Zuccaro and now 
recognizes Mr. Kragh.
    Mr. Kragh. Good morning, Chairman Costello, Ranking Member 
Petri, Chairman Oberstar, and distinguished Members of the 
Subcommittee. Thank you for the invitation to appear before you 
today.
    My name is Edward Kragh. I have been an air traffic 
controller for 22 years, and for the last 16 years I have been 
at Newark Liberty Airport. I would like to echo the sentiments 
of the Chairman and several others who have offered their 
condolences to the families of those departed on August 8 and 
also echo the sentiments of Congressman Mica on the passing of 
the much-beloved Mr. DeCota of the Port Authority.
    I am here today as NATCA's representative on the FAA's VFR 
flight rules task force. We were charged with examining the 
procedures in airspace surrounding Manhattan in order to 
recommend changes that would help make the airspace safer. My 
role in that task force was to serve as a subject matter expert 
on air traffic control procedures in airspace.
    The FAA invited NATCA to be a part of the task force and 
worked collaboratively with the union throughout. It is NATCA's 
hope that the agency will continue to follow through with its 
commitment to include us in the completion of this project and 
in any future changes.
    The August 8 incident occurred under visual flight rules 
outside of Class Bravo airspace in the Class B exclusion 
corridor, what we commonly refer to as the exclusion, during a 
handoff between air traffic control facilities. Aircraft in 
Class B airspace is permitted to use visual flight rules in 
clear weather, but separation in Class B airspace remains a 
controller's responsibility. No aircraft is permitted to enter 
Class B without first receiving clearance from ATC; and, once 
inside, pilots are then required to closely follow ATC 
instructions.
    In the exclusion, VFR aircraft are permitted to fly without 
being required to communicate with air traffic control. The 
exclusion is Class G or uncontrolled air space. As such, air 
traffic controllers do not have jurisdiction over aircraft in 
this airspace. The burden of separation there is entirely upon 
the pilots using VFRC and avoid procedures.
    Pilots flying in Class G airspace are currently urged to 
monitor and broadcast their positions over the common 
frequency, and they are expected to do so in order to 
effectively coordinate the use of that airspace.
    Climbs from ATC is required to enter and operate within 
Class B airspace, and under the current procedures Teterboro 
controllers do not have the authority to climb VFR aircraft 
into Class B airspace. Therefore, that transition into Class B 
requires a handoff of control from Teterboro to Newark.
    When the Newark controller accepts that handoff, that 
controller climbs the VFR aircraft into Class B; and if he is 
unable to accept the handoff, the aircraft must remain outside 
Class B airspace until receiving air traffic control clearance.
    That--just to divert from the statement for a moment--is 
what we discovered in the task force, that that loophole, which 
is also echoed in the recommendations--preliminary 
recommendations from the NTSB turns out to be a flawed 
procedure, which I will address now.
    On August 8, the Teterboro controller did initiate a timely 
handoff, which the Newark controller accepted. The Newark 
controller was expecting radio contact from the Piper, which 
never came. Although controllers at both Teterboro and Newark 
attempted to re-establish radio communication with the pilot, 
they were unable to contact him; and at the time of the 
collision, the pilot was not in communication with air traffic 
control at either Teterboro or Newark.
    There was an unfortunate rush to judgment regarding the 
underlying causes of the August 8 tragedy which, as several 
Members have stated, is still under investigation. But the 
controllers on duty utilized the procedures that they had been 
trained to use and that they were required to use by FAA 
orders. The first day the task force met it was unanimously 
agreed upon and recognized that those current procedures were 
flawed and that under those flawed procedures the August 8 
accident could not have been prevented.
    Since the incident, a number of elected official have 
advocated for full control for airspace around Manhattan, in 
other words, eliminate the Class B exclusion and require that 
all aircraft flying in this region be under the direction of 
ATC. NATCA and the task force both recognized that this drastic 
change would require significant new resources because present 
infrastructure is insufficient to handle those changes, and 
there simply aren't enough air traffic controllers to handle 
the increased workload that would result.
    The geography of that area with densely packed skyscrapers 
prevents effective radar and radio coverage currently. You 
might recall that when my colleague Patrick Harten testified 
regarding U.S. Air flight 1549 he described having lost radio 
and radar contact with that aircraft as it lost altitude. 
Additional radar and radio sites would be a necessity to safely 
provide ATC services to that corridor or some other form of 
enhanced surveillance.
    The FAA's task force recommended several changes to 
training procedures and airspace structure, and the union 
supports these recommendations. We agree that their 
implementation will make this historically safe corridor even 
safer.
    However, like the task force, we recognize that further 
analysis is required before the recommendations can be 
implemented. For instance, we agree with the recommendation 
that encourages pilots to transition the Hudson using Class B 
airspace above the exclusion so they are under ATC control. But 
an influx of VFR aircraft into Class B airspace may 
significantly increase controller workload and generate a need 
for increased staffing to meet those increased demands.
    Lastly, the FAA and controllers certainly work best when we 
work together. I implore the agency to continue to use this 
approach on behalf of the safety of the flying public.
    That concludes my testimony. I look forward to answering 
your questions.
    Mr. Costello. The Chair thanks you, Mr. Kragh, and now 
recognizes Mr. Coyne.
    Mr. Coyne. Well, thank you very much, Mr. Chairman, Ranking 
Member Petri, Chairman Oberstar, and other Members of the 
Committee.
    I would first like to echo the comments of Mr. Mica about 
our good friend, Bill DeCota. It has a special relevance here. 
Bill DeCota and I served as original members of what we called 
the Teterboro Task Force, which was a group put together to 
deal with the safety of aircraft operations in and around 
Teterboro Airport; and, of course, since Teterboro Airport was 
managed by the Port Authority of New York, it was an official 
responsibility of Chairman DeCota.
    And I wanted to echo the remarks of Mr. Mica. His sudden 
death is going to be a great blow to many of his friends in 
aviation, and we look forward to making further comments 
reflecting upon his career.
    I would also like to join all the rest in extending our 
sympathies to the victims of this accident. The small Piper 
Lance departed from Teterboro Airport just a few minutes before 
the accident. Its last location was at one of our members, 
Meridian Aviation at Teterboro Airport. Our members were the 
last people to see that pilot and his passengers, and it is 
always a great personal tragedy for us when situations like 
this happen.
    I, of course, serve as the President of the National Air 
Transportation Association; and we represent the businesses 
like the charter operators and FBOs and others who support 
aviation services around the country. And I am also on the 
board of the Flight Safety Foundation and the President and 
founder of the Air Charter Safety Foundation. So I have a real 
commitment to air charter safety and aviation safety.
    This accident provides us with an opportunity not only to 
address the specific concerns of this accident in the Hudson 
corridor and how to change, as has already been said, the 
procedures that need to be changed there--and I should point 
out that NATA strongly supports the recommendations of the FAA 
Task Force and the NTSB as the preliminary recommendations we 
have already seen.
    But I think in a situation like this there is also an 
opportunity for us to look at the bigger picture, the national 
picture. What can the entire country and all pilots and all the 
people involved in safety and regulation learn from this 
accident? What can we do to make the skies better for everyone? 
These are what I call the bigger lessons from this accident.
    The first one that comes to me is clear to those of us who 
were listening to the reenactment of this accident, and that is 
the communication challenges faced by controllers and by pilots 
alike in circumstances like this. You can't help but listen to 
that reenactment to conclude that there is something wrong with 
our communications procedures, especially in densely controlled 
airspace.
    We have, of course, the best air communication system the 
world could put together in 1959. We can do better in 2009. It 
doesn't take--everyone has the experience of driving in their 
car and talking on a cell phone perhaps and seeing how 
seamlessly we move from one control tower, if you will, to 
another and our communications is entirely uninterrupted. We 
can get digital information, texting anywhere in the country 
without any hesitation, regardless of where we are and where we 
are moving; and yet we have a communication device in aircraft 
which is, in fact, archaic.
    NextGen and the technologies embraced by it, we have been 
talking about for a long time. In fact, it was almost exactly 
15 years ago today that I was in this room. I think Chairman 
Oberstar was at that same hearing. It was called by Collin 
Peterson, and it was the first hearing of this Committee to 
talk about modernization of air traffic to take advantage of 
GPS and digital communication and data link. And we said in 
1994 we have got to do this. We have got to move in this 
direction.
    And here we are 15 years later. And although we are closer 
and I know millions of dollars and a lot of man hours have been 
put to move us in this direction, it is really time for us to 
modernize our air traffic control, especially the 
communications.
    The clear indication from this accident is that information 
that is not at the right place at the right time is worthless 
information. And the information that was needed by those two 
pilots was not in their cockpits because of the lack of NextGen 
capability of ADS-B and data link digital communication. So I 
hope that this Committee takes from this tragedy a renewed 
commitment to modernize our air traffic control system so that 
in the next few years we can say to any pilot and any citizen 
that this accident will never happen again.
    Thank you very much.
    Mr. Costello. The Chair thanks you, Mr. Coyne.
    And now the Chair recognizes the distinguished Chairman of 
the Full Committee, Chairman Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman.
    I want to express my appreciation to you for your continued 
vigilance over aviation safety and Mr. Petri for participating 
in and establishing this very, very important hearing and all 
the witnesses contributing their respective and special 
expertise.
    I join, as all of the witnesses have done, in expressing 
our condolences to the families of the victims and our sadness 
over loss in aviation. It is always dramatic. It is always 
painful. It hits us very hard, those of us who care so deeply 
about aviation.
    But I wanted to, at the outset of this hearing, to express 
my personal sense of loss at another, and some of the witnesses 
have mentioned that Mr. Mica apparently was here earlier and 
did as well, about the loss of Bill DeCota.
    Mr. Oberstar. For me it is particularly painful. I was with 
him just 2 weeks before he died, and our colleague, Mr. 
Crowley, who represents the district which encompasses 
LaGuardia Airport--we were doing a tour of the land side and 
the terminal facilities on the air side, followed with a 
meeting with neighbors of LaGuardia concerned about noise.
    Bill DeCota was an encyclopedia of information about 
aviation in general, but also about the three airports for 
which he was aviation director for the Port Authority of New 
York and New Jersey. He lived, breathed, slept aviation. He was 
there from early in the morning to late at night. He did not 
marry, did not have a personal family of his own, but his 
family, his love, his life was aviation.
    We discussed the various changes that needed to be made in 
the terminal of things that were in progress, actions that were 
in progress on the land side at LaGuardia. We walked through 
the terminal. He showed how these things hadn't been changed 
since Fiorello LaGuardia in 1939. And with great excitement he 
pointed out the changes that would be made inside to 
accommodate passengers, showed me where people are sitting in 
the corridors--that is not acceptable, we can't have this--you 
know, with great energy and enthusiasm.
    Then, on the air side where aircraft were parked there just 
wasn't enough room. If we make these changes, which he 
discussed, some consolidation of services, we will have fewer 
aircraft, more passengers, fewer arrivals and departures, less 
impact on airport neighbors.
    And we went through this whole morning of Bill being really 
enthused and excited. I just couldn't imagine a person more 
alive and more excited about his work dying so suddenly, just 
like the victims of this crash.
    So I offer to all his friends, associates, his colleagues 
and the neighbors of airports that he served so 
enthusiastically and with such vision and direction, and sense 
of direction that the airport authority needed to move, my 
heartfelt condolence, which is an inadequate word for the deep 
sense of loss that I feel personally about Bill DeCota. 
Aviation has lost a great advocate and enthusiastic friend, one 
who had the best interest of the traveling public, the 
airlines, the personnel who worked at that airport, and the 
airport neighbors as well.
    The subject of this hearing, to me is reminiscent of the 
tragedy over Cerritos, California. For several years I had held 
hearings. And, Mr. Coyne, you may have been in Congress at the 
time that we conducted these hearings; I know that Mr. Costello 
was. Great resistance over installing on or requiring 
installation on aircraft of Mode C transponders and TCAS.
    The FAA said, Oh, technology isn't ready yet, TCAS-I, there 
is something else in the works; there will be TCAS-II, there 
will be something better than that. We kept saying the perfect 
is becoming the enemy of the good.
    And then that tragedy occurred over Cerritos. And it was 
Mr. Packard on the Republican side who represented that 
district--himself, I think, a pilot and enthusiast for 
aviation--who said, We have to require TCAS onboard aircraft by 
act of Congress.
    I said, Ron, you introduce the bill; I will join you as 
cosponsor.
    He did and we did. We had the hearing, reported the bill 
and moved it through the House and the Senate; and it became 
law. And then suddenly all the opposition of the airlines 
melted away.
    But do we have to have fatalities? Do we have to have 
tragedy in the air before we act? Again and again and again, is 
that what it takes to mobilize? Doesn't the wisdom of the NTSB, 
the wisdom of the air traffic controllers, the wisdom of the 
FAA suffice to say, This is what we need to do; look ahead and 
do it now before there are fatalities?
    I question the classification of airspace in the way it has 
been structured in this busiest of all air traffic facilities 
in the world. The New York TRACON handles as much air traffic 
as all of Europe combined, responsible for 16 airports, 
1,200,000 operations last year. Charles de Gaulle, London 
Heathrow, Frankfurt, Amsterdam, Madrid, all together handle 1 
million--2,100,000 operations a year.
    This is New York-New Jersey Port Authority. Why don't we 
have at least Mode C transponders on aircraft? That is not 
going to break the bank. A TCAS-II is in the range of $200,000. 
That could be very expensive for a small aircraft. And from the 
standpoint of air traffic controllers that may be too much 
traffic, too much signalization in that airspace, too much 
"clutter," as you call it. But somehow if you are going to 
operate in this busy airspace then you ought to have on board 
the aircraft the equipment you need to let others know when 
"see and avoid" fails. That has been my position for years. I 
think that is where we need to go.
    I will stop at that point. Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you, and now recognizes the 
Ranking Member of the Subcommittee, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    Thank you all for your testimony. And I appreciate the 
investigations ongoing. But I just would be curious to know, it 
seems listening to this and reading some of the transcripts and 
one thing and another that one of the key contributing factors 
to this accident was the loss of contact between the airplane 
and, I guess, it was Newark following what was supposed to be a 
handoff, and suddenly the person has disappeared. And that was 
due to a miscommunication of--the controller gave the correct 
frequency for Newark, the person repeated a slightly different 
frequency and suddenly logged on to a station in Connecticut or 
somewhere, and they were out of contact.
    If that is true--I mean, my daughter, everyone else, has 
BlackBerrys; they are texting, they are very good at it. Can't 
you just figure out--there is voice recognition equipment these 
days in cars where people--you say the number, and it prints it 
out. This doesn't seem to me to be rocket science in this day 
and age. For a couple hundred bucks you could not just say it, 
you could print it out on any little device, BlackBerry, in a 
cockpit or something.
    Am I missing something? I mean, all the redesign and talk 
about the space, it seems to be a communication problem. It is 
human error. We are never going to eliminate that. But we need 
to have backup systems and give people opportunities to verify 
quickly in real time how they are communicating. Would any of 
you comment on that?
    And the second question, I didn't understand really very 
well: Mr. Fuller was talking about the one area of variable, 
when you are entering into it, you hit various precertified or 
predictable possibilities, and there was one where people had 
to make real-time choices, and if that was this and the 
communication contributed to that, or how that all worked.
    Mr. Fuller. Well, let me just start with the first point 
you make. And I am not trying to avoid the question, and I will 
respond to it; but we obviously don't know exactly, or I sure 
don't know exactly, what happened in that aircraft.
    I think that while technology can solve a lot of things, 
there is always going to be some human error. One of the 
procedures that we follow when we fly aircraft is--all 
aircraft, whether it is by single-engine Bonanza or a jet 
aircraft--when a controller gives us an assigned frequency, we 
read that frequency back with our aircraft identification 
number. It is the single best way to assure the controller, as 
well as the pilot, that you are going to enter the frequency 
that you were assigned.
    I don't know why, if the frequency was read back and either 
not understood or was read back incorrectly, it wasn't 
corrected. It happens to us who fly, not often, 125.52 
sometimes sounds like 125.25. In the amount of time--that 
happens to be a Potomac clearance frequency, approach 
frequency--in the time it takes to read it back, you don't 
switch over, so you wait to make sure that if there is any 
question, the communication between the controller and the 
pilot straightens that out.
    I think that is a procedure that works well for us. I don't 
know how foolproof the technology is for voice recognition with 
the many voices we have and the many kinds of equipment we 
have, and I would be a little hesitant to think that would be a 
solution.
    That is about all I can say on the question of the 
communication and how we verify the correct frequencies, 
because as I said, I don't know what happens.
    I will say one other thing. One of the--and I have flown 
for 42 years. I have seldom seen an accident where there was 
one clear-cut reason why the accident occurred. Every aircraft 
has strengths and weaknesses, every aircraft has blind spots 
and good visibility.
    I fly a low-wing Bonanza aircraft. One of my blind spots is 
obviously under those two wings on either side of the plane. 
One of the realities is, our radio is in the center of the 
console, so by definition, if you are working on your radio, 
you are looking to the right. And obviously the helicopter was 
coming up on the left in a blind spot. I think that had to be 
part of the--one of the things that was going on.
    To the point I was making about Teterboro today, or even 
Teterboro with the new regulations, as an instrument-rated 
pilot, I could file an instrument flight plan from Teterboro to 
Atlantic City, let's say. I would not be released from 
Teterboro until I could enter the air space. I would be under 
positive control, talking to the controller. That is one 
alternative.
    I could also decide to leave Teterboro knowing that I was 
intending to fly on a clear day, if the rules were appropriate, 
fly that flyway. And I would know exactly what altitude I had 
to be at, and I would be looking for traffic, monitoring the 
frequency.
    The point I was making was--the third alternative is to 
take off from Teterboro VFR and able to fly visual flight rules 
and expect that handoff, request clearance into the Class Bravo 
airspace for positive control. Those clearances, those requests 
are accepted hundreds of times a day, maybe even more, but 
hundreds of times a day, but it is not certain I would get it.
    So of the three alternatives available--the taking off VFR, 
requesting a clearance request Bravo airspace is the one 
alternative that leaves a degree of uncertainty as to whether I 
am going to get cleared into positive controller space or to 
actually be steered into the corridor until they can take me. 
Personally, this is personally speaking, that is the most 
complicated, because I now have alternatives I am not certain 
about, and I would rather have a plan and execute the plan.
    Flying in New York air controlled airspace always means 
there is some uncertainty. You are always given different 
clearances. But it further complicates the workload on a pilot 
who may have thought he was going to get to 3,500 feet talking 
to controllers, but actually was sent to 1,100 feet until he 
could get their clearance.
    Mr. Costello. The Chair thanks the Ranking Member and now 
recognizes the gentleman from New Jersey, Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    As I listen to some of the comments that were with your 
testimony, I think this could have been avoided. Mr. Krakowski, 
you make a comment regarding how some of the regulations will 
implement to someplace else in an air show. What was that air 
show you talked about?
    Mr. Krakowski. Oshkosh.
    Mr. Sires. Oshkosh, 3,000 hours or whatever it was. Now we 
are going to use it here.
    The controller said, right from the beginning that they 
realized that that could have been avoided.
    I just don't know what it takes. Sometimes we implement 
these things before it happens. These regulations, I assume 
that you think this is going to work to make it more safe.
    Mr. Krakowski. We absolutely are confident they are going 
to work, because they are techniques that are used in high-
volume airspaces like the Oshkosh Air Show.
    The difference is, these were recommended procedures over 
the Hudson for many, many years. They weren't charted very 
clearly. We talked about the frequency confusion issue, and 
even the handoff confusion issue from the Teterboro tower to 
aircraft transitioning out of there. All of these are accounted 
for in our recommendations.
    Mr. Sires. Are there any new recommendations for flights 
underneath 1,000 feet? Do you have new guidelines for 
regulating? Because 1,000 feet is not very high, especially 
where I live, and especially where Congressman Nadler lives.
    And how far in are these corridors? I mean, I stand on my 
balcony and it looks like Ming City in Flash Gordon, with all 
these planes flying in and out. I mean, I just think that 
something has to be done, especially those flights that are 
low. Sometimes I wave to them on my balcony.
    Mr. Krakowski. I am going to ask Mr. Zuccaro to help me out 
because he has flown in that airspace quite a bit. There has 
always been traffic at different altitudes in that airspace, 
low altitudes, doing their missions, and the high altitudes as 
well.
    What the new regulations are intended to do is to better 
separate faster-moving traffic from maneuvering around slower-
moving traffic, and you do that by altitude, by keeping the 
slower aircraft low. A typical technique you use at air shows 
and military training fields, we use this technique; it was one 
of the strong recommendations that I think Mr. Kragh was pretty 
fervent on during the----
    Mr. Sires. Mr. Krakowski, with all due respect, in air 
shows they don't have millions of people underneath them, and 
they don't have high-rises that you look from the balcony and 
you see almost at eye level. I mean, we have to--there is also 
the fact that people live underneath where these people are 
going by. And the noise factor and the safety factor.
    I mean, we were very fortunate that these two planes fell 
in the river. Had they deviated somewhat they could have hit 
another high-rise in New York City or in my district.
    Have you ever considered limiting? I mean, sooner or later 
it is going to reach a saturation point where you cannot have 
so many flights over this area. Is there any consideration for 
that?
    Mr. Krakowski. The task force was not considering any 
limitations. In fact, if you look at the task force 
recommendations, we didn't think it was appropriate.
    We thought the first step was to take the traffic that 
exists and put a little more order into it, which is exactly 
what the regulations do. We believe access to the national 
airspace is a public right for those who want to use it.
    Mr. Sires. But sooner or later public right infringes on 
the public safety, and a decision has to be made. I mean, this 
is not a very large corridor for the amount of flights that are 
going through there.
    Mr. Krakowski. We are making decisions to put more order in 
it. Very similar to the Los Angeles flyway that was referred to 
earlier, those techniques have been used for many, many years. 
We think they are appropriate here. And we think the safety 
equation is increased by putting these into effect on November 
19th.
    Mr. Sires. How about flights from 1,000 or 1,100 feet, any 
regulations? How low can they go, some of these flights?
    Mr. Krakowski. Well, seaplanes can go to the surface.
    Mr. Sires. What does that mean? I am not a pilot.
    Mr. Krakowski. Seaplanes land on the surface, and there is 
some of that.
    Matt, would you like to try to help out?
    Mr. Zuccaro. Maybe I can try to give an overview.
    But basically the traffic right now, as a point of 
information, is actually less than it has been in previous 
years. There have been higher levels of traffic when the 
activity and the economy was better.
    In 9/11/2001 the traffic dropped off, obviously, to almost 
a stop immediately following the event; and it took several 
years to build back up. It did not really achieve the level 
that we had in the late 1980s and in the 1990s. And now, with 
the economic downturn, the traffic level actually has gone 
down.
    In terms of the ability to operate within the corridor, I 
have to remind people that nobody is more motivated for safety 
than the pilots and the operators. We are in the helicopters, 
we are in the airplanes. It is our lives at stake, so we are 
motivated to do everything we can to make it as safe as 
possible.
    I don't think we can ignore the fact that that area has 
operated for over 25 years without an incident like this. But I 
will repeat my statement; one accident is too many; and we have 
to do everything possible to enhance safety. The difference 
that you will see is that the procedures that were previously 
voluntary, which in fact created that environment that gave us 
a safe, efficient operating place, are now transitioning from 
voluntary to mandatory. It is not an option for a pilot anymore 
to comply with the recommended procedures and things on the 
charts and in the literature that is put out. You have to do it 
now under these new recommendations.
    That is going to enhance greatly the aircraft 
stratification, by mission; and what we mean by that is, the 
pilots that are transitioning the area--and that is all they 
are doing is going from A to B; a case in point would be going 
from the George Washington Bridge to the Verrazano Bridge, and 
you have no intention of landing in a heliport, you have no 
local mission that you have to perform--that traffic will 
remain in that higher-altitude corridor and just go through 
rather than having an option of "Which altitude do I go through 
at?"
    The helicopters predominantly will be in the lower 
altitudes just by the sheer mission of the fact that they are 
coming and going from heliports and have a need to reach that 
facility. So they will be at the lower altitudes to get to and 
from that facility. When they are operating and transitioning 
in and out of the area, they too will be up. And helicopters 
actually operate within the controlled airspace on a fair 
amount of the flights that they conduct, even the tour 
operations. Only a portion of the tour is done in the 
uncontrolled airspace below the 1,100 feet that currently 
exists. They go up into the controlled airspace for a part of 
that tour.
    And helicopters that don't do tours--corporations, on-
demand charter, police, electronic news gathering; on many 
flights they have no need to go in the corridor--they will be 
at the higher altitude. So we are very conscious of safety. We 
are the most motivated people to be safe.
    Mr. Sires. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman from New 
Jersey and now recognizes the gentleman from North Carolina, 
Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. Fuller responded to Mr. Petri's question. Mr. 
Krakowski, let me extend that line of questioning with you.
    Based on the transcripts and the air traffic control tapes, 
it appears that air traffic control may have lost contact with 
the pilot due to an alleged failed handoff. How did the working 
group address the alleged deficiency of the verbal handoff that 
seems to have played a pivotal role in the accident?
    Mr. Krakowski. That is an excellent question, sir.
    One of the things that the task force did is--and I think 
Mr. Kragh would be probably useful to respond as well--the 
handoff procedure, we don't think, was as good and robust as it 
could be, particularly when you are transitioning aircraft out 
of Teterboro to Newark where there is an uncertainty whether 
Newark is going to take the handoff; there is a frequency 
ambiguity because of the way the airspace is parceled out.
    And the task force recognized this and are recommending 
procedures for Newark to actually authorize that prior to the 
takeoff in Teterboro, plus other handoff procedures in the 
area, which will assure a more positive control of what 
frequency should airplanes be on during these operations.
    I don't know if Mr. Kragh would like to speak to that.
    Mr. Kragh. Thank you, yes.
    Congressman Coble, this could answer the question that 
Ranking Member Petri posed and some of the concerns that 
Congressman Sires also expressed.
    The task force recognized almost immediately, and I have to 
say as a matter of personal frustration for me, to have brought 
forth so many other safety issues, not to have seen this 
loophole coming, it is agonizing to have lost these lives and 
not been able to have the foresight to correct this flawed 
procedure.
    But there aren't a whole lot of flights that do what one 
mike charlie did that day, and come out of Teterboro and get a 
handoff to Newark. So we were able to recognize the flawed 
procedures and correct them by taking a whole bunch of steps in 
the recommendations.
    First of all, going back to Mr. Fuller's remarks, a pilot 
shouldn't be given a whole bunch of options while he is flying 
or while he is taxiing. There should be a definite plan, what 
action am I going to take to exit this busy airspace; and that 
plan should happen probably before that pilot starts moving 
that aircraft even away from the ramp.
    Unfortunately, controllers are trained in a very linear 
fashion, and the first controller that that pilot spoke with 
that day is only checked out or certified to work that 
clearance delivery position. They don't really know yet what a 
pilot's options are. They might not even be familiar with all 
the procedures that the other controller in the tower is going 
to use because they haven't yet been trained on that.
    So recognizing that, recognizing that there were so many 
options to get out of that airspace, the recommendations that 
we came up with were, one, require the Teterboro controllers to 
contact Newark prior to that aircraft ever departing and 
request approval to allow it to depart. That way the controller 
in Newark can say yea or nay, and they can hold that aircraft 
on the ground. I think, as Mr. Fuller described, it happened to 
him in the past.
    And then there is a training element for less experienced 
controllers, those who have just certified on those first 
positions may have only months, literally, of experience 
talking to airplanes. And it may not be private pilots either, 
which is also--you know, just doesn't give them the foresight 
to make a plan, to help a pilot make a good plan as he is 
leaving that busy airspace.
    A more experienced controller, in fact, hearing a pilot 
make that initial request--I would like to depart, and go--I 
think this gentleman requested to depart to Ocean City at 3,500 
feet. That, to an experienced controller like myself, is a very 
vague request. I would have the experience and knowledge to 
offer him all the options available and nail that down before 
he ever gets that plane moving. Unfortunately, that younger 
controller hasn't had that experience and may not yet be 
trained on those elements of the system.
    So we are going to develop in conjunction with the agency--
and I hope I get to participate in the development of that--we 
are going to develop a training module for controllers. There 
is also another recommendation to develop training for pilots, 
so that we can all be singing from the same page, so to speak, 
before he ever gets the aircraft moving.
    Mr. Coble. I thank you for that.
    I have one more question, if I may. I think on balance, Mr. 
Chairman, the controllers and the entire aviation industry has 
done an excellent job in promoting and nurturing safety; but as 
one of you pointed out, one accident is one too many. If I may, 
Mr. Chairman, one more question.
    Mr. Krakowski, what is the FAA's policy regarding personal 
phone calls while on duty, A? And B, is there anything in the 
manual, FAA orders, that specifically lays out this policy?
    Mr. Krakowski. Yes, indeed, when you are on duty and 
position, those types of calls are not permitted. And one of 
the things we did immediately after the accident is mandate all 
of our facility managers reinforce that to every operating 
controller across the country by no later than September 15th 
and sign off that they had that conversation to remind them of 
that responsibility.
    Controllers get breaks just like everybody does during 
work, and those types of calls are appropriate during those 
break periods.
    Mr. Coble. Thank you all for being with us.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you, and now recognizes the 
gentleman from New York, Mr. Nadler.
    Mr. Nadler. Thank you, Mr. Chairman.
    Mr. Fuller said that the corridor is a very safe corridor. 
And yet in Ms. Hersman's testimony, she stated that the Near 
Midair Collision database and the NASA Aviation Safety 
Reporting System database revealed 11 reports of near midair 
collisions between aircraft in the exclusion area since 1990. 
So that says to me that we have been lucky and that it isn't 
quite as safe as we may suspect.
    Now, due to the current limitations of each of the various 
technologies----
    Mr. Oberstar. Mr. Chairman--would the gentleman yield?
    We have to get the gentleman's microphone corrected here. 
What the gentleman is saying is very important and the static 
from that microphone may obliterate his comments.
    Mr. Nadler. Thank you, Mr. Chairman.
    Due to the current limitations of each of the various 
technologies, the FAA seems to have determined that the best 
approach to improving safety in the corridor in the exclusion 
area is to change operating procedures, enhance training and 
improve communications. But given that this is such a congested 
area--by the FAA's estimates, about 600 aircraft in the 
exclusion area on a typical good-weather day--why hasn't the 
FAA given any consideration to limiting the number of flights 
at least until satellite-based technology is available to track 
and manage traffic?
    And I was disturbed to hear a moment ago Mr. Krakowski's 
offhand remark that unlimited access is a right. I don't think 
unlimited access is a right. It may be consonant with safety, 
it may not be. But that attitude, frankly, is a very disturbing 
one.
    Mr. Krakowski. Well, again, Congressman, what reinforces my 
belief that these procedures----
    Mr. Nadler. I can't hear you.
    Mr. Krakowski. There we go.
    What reinforces both my and the task force's belief that 
these procedures and these changes will take the existing 
flights in the area and continue to make them safe are the 
experiences that we have across other parts of the country.
    And I keep referring back to Oshkosh because it is 
important. We don't have controllers looking at radarscopes 
separating 3,000 airplanes per day during an almost 9-day 
period every year. We use these very types of procedures to 
take a many-times-greater even saturation of traffic and manage 
it correctly going in and out of that huge general aviation air 
show, with a mix of traffic, by the way, that we don't even 
have in this corridor--military aircraft, gyrocopters, hot air 
balloons, I think, at one time. But it is probably the most 
dynamic mix of aircraft you ever saw.
    So the pilots, who know what frequencies to be on, know 
what route to fly, where to check in and tell each other where 
you are at, I think these have been well demonstrated as good 
safety practices, which we mandate for some of the high-volume 
areas. So we think it is the right step here.
    Mr. Nadler. I am not sure I understand what you are saying.
    You are saying that mandating these, which presumably 
should have been mandated a long time ago in New York, is safe 
enough that you don't have to consider limiting the volume?
    Mr. Krakowski. We believe these procedures will. You are 
going to vertically separate different airplanes, horizontally 
separate them as well, make sure the airplanes are more visible 
to each other----
    Mr. Nadler. And that is sufficient, even given the level of 
traffic?
    Mr. Krakowski. We believe so.
    Mr. Nadler. At what level of traffic would it not be 
sufficient?
    Mr. Krakowski. I have no opinion on that.
    Mr. Nadler. An infinite amount of traffic would be okay 
under this?
    Mr. Krakowski. I am sorry.
    Mr. Nadler. An infinite amount of traffic what be okay 
under this?
    Mr. Krakowski. I have no opinion.
    Mr. Nadler. You have no opinion on an infinite amount of 
traffic.
    Mr. Krakowski. I don't know what that means, really.
    Mr. Nadler. Forty thousand flights.
    Mr. Krakowski. Obviously, that would be a problem.
    Mr. Nadler. Okay. So where would you-- where might you draw 
a line?
    Mr. Krakowski. It would take some analysis for me to come 
to a conclusion like that.
    Mr. Nadler. But without doing that analysis, 600 is fine?
    Mr. Krakowski. Well, it is actually more like 200 in the 
corridor. I think the 600 number is in the New York area 
overall. Our analysis, the FAA analysis, is that in that 
corridor it is about 200 operations per day.
    Mr. Nadler. We keep hearing from the FAA that it is 600 in 
that corridor.
    Mr. Krakowski. No, it is not 600 in the corridor.
    Mr. Zuccaro. I think some of the confusion coming is the 
way that the heliports report operations. They report a landing 
and a takeoff. It is really the same helicopter. It is one 
operation.
    So you would have that. It is one aircraft coming in and 
going back.
    Mr. Nadler. Thank you. My time is running out.
    Has the FAA given any consideration to the fact that under 
the proposed plan to stratify the airspace, you will have the 
same number of flights with pilots operating under visual 
flight rules, but condensed into an even smaller geographic 
area?
    Mr. Krakowski. The geographic area is not changed at all. 
What we are doing is putting more order into it by having the 
altitude separation and the horizontal separation along with 
the visibility rules and reporting rules.
    Mr. Nadler. And have you given any consideration to 
accelerating implementation of NexGen in New York?
    Mr. Krakowski. Absolutely. ADS-B, which is probably the 
best technology to address the New York issue long term, the 
actual ground infrastructure network, will be in place in that 
area by the end of next year.
    Mr. Nadler. And finally, because my time is running out, 
the FAA requires certain training measures for pilots who fly 
in the Washington, D.C., area. Why are you not recommending 
making that training mandatory for pilots that fly in the New 
York area? Why only recommend it?
    Mr. Krakowski. It actually is mandatory, because every 
pilot is mandated by law to be familiar with the flight rules, 
have the charts available and fly the procedures as specified. 
Every pilot, before they take off, is mandated under law to do 
something called preflight action, which means that the review 
of the operating procedures in that area----
    Mr. Nadler. But in Washington you mandate, I am told, that 
these pilots take certain classes; and you are not mandating 
that in New York. Why is that?
    Mr. Krakowski. Because the rules around Washington are 
hypersensitive because of security requirements in the area. 
And that is what drove this entire zone around Washington, DC.
    We don't have those same security considerations up there.
    Mr. Nadler. You mean they are more complicated in 
Washington?
    Mr. Krakowski. No. I think it is a higher security concern. 
The issues around the Washington airspace are more around 
security versus aircraft diversion.
    Mr. Nadler. They are not more complicated, they are simply 
more important? That is what you are saying, in effect.
    Because of security related they are more important because 
they are safety related in New York? That is the implication of 
what you are saying.
    Mr. Zuccaro. If you would allow me, can I just enlighten on 
which is the majority of the operations in terms of pilot 
population, the tour operators?
    They are actually regulated by three sets of regulations. 
Their training is mandatory. All of the pilots that fly tours 
have to comply with Part 95, FAR Part 135 and FAR Part 136. 135 
and 136 actually mandate training that they have to take.
    Mr. Nadler. So your testimony is that they are mandated to 
take equal training to that mandated in Washington, including 
those classes?
    Mr. Zuccaro. It is way above that training.
    Mr. Nadler. Way above that training?
    Mr. Zuccaro. Way above that training. They have to get 
local area orientation, they have to get aircraft 
qualification. If they change type aircraft they are trained. 
If they even fly the same model of aircraft, and it has a 
different button in a different place, they have to take 
differences training. And they do this as a minimum every year 
and some 6 months.
    Mr. Nadler. Thank you.
    Mr. Costello. The Chair thanks the gentleman from New York, 
and now recognizes the gentleman from Michigan, Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    I have fewer questions than comments at this point because 
a lot of the good questions have already been asked and 
answered. But I commend the FAA and their response to this 
particular incident. And the new plan you have laid out, I 
believe, is considerably better than what you have had, and I 
think you will be successful in maintaining the safety record 
that you like.
    My question, Mr. Krakowski, is do you regularly review all 
the different areas in the United States and try to find 
problem areas like this. I mean, I suspect if you had really 
carefully personally examined the procedures in Teterboro a 
year ago, you would have said, Hey, you've got some holes here 
that we ought to plug.
    Do you routinely do that across the United States at all 
these particular locations, and not you personally, but 
instruct the staff there, try to find out what could possibly 
go wrong and see what you can do to correct it?
    Mr. Krakowski. It is a good question, and we typically have 
not been in a mode of looking at visual flight rule traffic 
areas. Most of our concentration of our risk in the system is 
around airliners and business jets and everything that we are 
actually positively controlling. And it is a combination of not 
just air traffic, but Flight Standards and the Safety Division 
of the FAA to collectively look at this larger picture that you 
are suggesting.
    One of the follow-on actions that is going to happen from 
this effort that we are doing is, after the task force 
recommendations have been adopted, we actually put them in 
place in New York, we want to see how they operate, we want to 
evaluate if they are effective or not. But the other thing we 
are going to do with Flight Standards and Safety, like we did 
after the Comair accident in Lexington, where the jet took off 
on the wrong runway, is look for similar-type risks in other 
areas. We have an idea of where those may be.
    We want to put the same high-performing team on looking at 
some of these other areas in the country. And we will be doing 
that going into next year, but we want to make sure that they 
stay focused on making the New York situation better.
    Mr. Ehlers. Thank you. And I would encourage you to 
continue doing that as much as you can.
    But a comment also. I just want to make it clear to the 
public and the media who are here, I am a would-be pilot, and I 
am a member of AOPA. Mr. Fuller is the president of that, and I 
have been a member off and on for more than 50 years now.
    I am struck every time I read that magazine, plus the other 
five aviation magazines I get and try to read--while I am 
flying, by the way, not while I am piloting; but every 
magazine, there is just so much emphasis on safety in all the 
aviation magazines. And it is there for a reason, because we 
want a safe air transportation system.
    But also they are being read because every pilot wants to 
be a safe pilot--and not just as a matter of preserving their 
own lives, but this is a great sin if you cause an accident, 
and particularly if you cause a death. Pilots really, really 
take safety seriously, and I think we should recognize that and 
commend them for it.
    I also want to give my annual diatribe against public 
attitudes on flying, and some of you have heard this before in 
various other accidents. But this was a terrible accident and 
no one wants to have something like that happen. On that same 
day, I would guess that at least 100 more people were killed in 
the State of New York and hundreds more were killed across the 
Nation than were killed in that particular accident. None of 
them made national news; some made local news and that is it.
    This preoccupation with aviation as somehow being dangerous 
or not operating appropriately is just dead wrong. There is a 
great deal of concern about safety among pilots, among 
passengers, everyone in aviation, and it has been very 
successful. When you look at Jim Coyne's outfit, the flight 
records, they are just astounding on a passenger-mile basis, 
just absolutely astounding, and much, much safer than getting 
into an automobile and driving that same distance--also much 
safer than most other countries' aviation systems.
    So I think instead of--you know, it is good to have these 
reviews and find out what went wrong and correct it. But let's 
always keep this in mind: 45,000 people every year die in 
automobile accidents. The aviation accidents don't even get 
into the hundreds, generally less than 100 per year, with a lot 
of miles flown--not quite as many as the automobile; it has 
been a lot.
    So I think it is important for us on this Committee, it is 
important for the public, it is important for the media to 
recognize that. The very fact that this is national news is 
because it occurs so rarely. And always keep that in mind and 
commend the pilots for their care and thoughtfulness in their 
flying. It is just absolutely remarkable.
    Thank you.
    Mr. Costello. The gentleman makes an excellent point.
    And now the Chair recognizes the gentleman from Missouri, 
Mr. Carnahan.
    Mr. Carnahan. I want to thank the Chairman and Ranking 
Member for putting this hearing together, all of you on the 
panel for being a part of addressing these safety issues and 
add my voice and condolence to the people who were lost and 
their families.
    The question I had had to do with the type of aircraft 
involved in this August 8th crash being an on-demand aircraft. 
According to a report issued by the DOT inspector general in 
July, on-demand aircraft receive less FAA oversight and have 
more fatalities than commercial aircraft. The FAA's rule for 
on-demand aircraft has not been updated for more than 30 years.
    What steps do you think need to be taken to improve FAA's 
oversight of on-demand aircraft? And I wanted to start with Mr. 
Krakowski.
    Mr. Krakowski. Congressman, I run the air traffic 
organization, so I don't have the oversight of the Aviation 
Safety Organization as part of my portfolio so I am really ill-
equipped to speak to your question.
    I would be happy to make sure that the Office of Aviation 
Safety would get with you and answer your questions.
    Mr. Carnahan. I would ask that you do that, and ask any 
other of the panelists to take a shot at that.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Zuccaro.
    Mr. Zuccaro. I would like to take it, speaking specifically 
about the helicopter industry in New York. There is a large 
population of 135 on-demand aircraft there.
    A number of years ago the city of New York's Economic 
Development Corporation published a heliport master plan, and 
as part of that plan, they analyzed the operations within the 
New York City heliport structure. The helicopters, including 
the on-demand traffic that operated at those heliports was 
found to be six times safer than the national average operating 
in and out of there. One of the reasons that contributed to 
that is because of the fact they were on-demand, and they had 
higher training, higher equipment in the aircraft and a more 
formalized methodology of operating the aircraft in the New 
York metro area.
    So I would solicit that, in fact, the on-demand environment 
where there is a high surveillance oversight of the helicopter 
industry, certainly in New York, actually contributed to an 
enhanced environment operating at those heliports.
    Is it possible--I would just like to carry on a little 
quick comment about Congressman Ehlers about the--and I think 
it is an important one because it is a personal one.
    You spoke in terms of the attention put on aviation 
accidents and how people have a perception that aviation is a 
much less safe environment than other modes of transportation 
or activities in life. From a personal standpoint, there was a 
very good friend of mine who was a highly motivated safety, I 
want to say, mentor in the industry.
    This gentleman's name was Paul Smith, and he flew 
helicopters in Vietnam, like I did, and came to the New York 
area in the early 1970s and spent pretty much his career like 
mine, different operations. And he flew there for over 25 
years.
    As part of his last job, he was the pilot for the ABC 
Eyewitness News helicopter, and in that position he assisted 
the citizens in reporting traffic or to assist the fire 
department, and he would--you know, in fire oversight by 
providing the pictures. And it was a very ironic situation, 
because I used to go into the neighborhoods and work with the 
communities, and Paul would accompany me; and people would say, 
you know, We think the helicopter is unsafe.
    Paul made the comment on a repeated basis that he was more 
worried about driving to work and walking the city of Manhattan 
than he was flying that helicopter over the city of New York 
for 25 years.
    There is a very sad end to this story. Paul basically got 
killed on the city of New York streets coming out of a 
restaurant, hit by an out-of-control cab; and his wife was 
critically injured.
    That man spent 25 years over the city, safe, never had 
anything happen to him, the airspace treated him safely; but he 
was killed on a Manhattan street by a cab.
    I would purport that we act accordingly when these events 
occur.
    Mr. Costello. The Chair thanks you, and now recognizes the 
other gentleman from Missouri.
    Mr. Carnahan. Mr. Chairman, if I could.
    Mr. Costello. Sure. Go ahead.
    Mr. Carnahan. Mr. Coyne.
    Mr. Coyne. Well, just very briefly. I want to mention, as 
the president of the Air Charter Safety Foundation, we strongly 
support a wide range of safety initiatives in the air charter 
and on-demand community.
    But perhaps the most important thing that has been done in 
the last 5 years is the rule-making committee, the ARC, which 
was established for 135 safety, which submitted to the FAA a 
broad range of recommendations on Part 135 safety, which we 
have strongly supported. Those recommendations are, I think, 
very close to being converted into new rules at the FAA; and if 
someone from the safety part of the FAA had been here, I am 
sure they could have given you an update on that.
    But it is our hope that those ARC rule-making 
recommendations, which are at the FAA being evaluated, will be 
turned into new recommendations rules in the near future.
    Mr. Carnahan. Thank you very much.
    Mr. Costello. The Chair thanks the gentleman, and 
recognizes the other gentleman from Missouri, Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    I guess more of a comment than anything else, and to kind 
of build on what Mr. Ehlers has said, and even a little bit on 
what Mr. Zuccaro has said. You know, this was a tragedy, it was 
an absolute tragedy. But don't lose sight of the fact that 
these two pilots involved in this were the two people that had 
more at stake than anything else, and they wanted to be just as 
safe as they possibly could. They wanted to go home that night 
after work, whatever the case may be. And there was a mistake. 
And it doesn't matter if we ever had more technology in the 
aircraft or if we had had more safety inspections on the 
aircraft, there was still a breakdown and a mistake.
    There was a handoff procedure that was missed. And they 
came up on a frequency that obviously wasn't the frequency to 
come up on. And the bottom line is, it comes down to still 
visual separation. A pilot is responsible for visual separation 
from himself and any other aircraft in the air. Period.
    And it is a terrible thing that happened, an absolute 
terrible thing that happened. But let's use a little bit of 
common sense.
    We have--and I am glad we are taking a look at some of 
these things. Whether it is what Mr. Nadler pointed out, and 
some of the very busy airspace. I have been in that airspace 
before. I am a commercial pilot. I don't point that out because 
I am trying to brag about experience, but I also know what 
visual separation is.
    And flying into Oshkosh is a perfect example, and I have 
done it before, and I have done it when I have got airplanes on 
three sides of me that I am trying to maintain a visual 
separation from with very limited radio contact. You still have 
to separate yourself from anybody else that is in the air.
    And I don't know--we don't know what the distraction was. 
The pilot may have been messing with his radio trying to figure 
out why he couldn't bring up Newark, what was going on, and 
lost contact. The helicopter pilot--you know, the same way, we 
don't know what it was. But the unfortunate thing was there was 
an accident.
    The same thing can happen to the person that dozes off 
going down the interstate and crosses the median, the same 
thing that can happen in any other transportation accident that 
takes place. The unfortunate part is, it is aviation that seems 
to get all of the attention on this; and it is a very, very 
safe industry. And don't forget the fact that these pilots are 
the safest people. They want to be safe. It is in their best 
interest to be safe in the air. But accidents do happen.
    I am not trying to diminish it any, I am not trying to 
downplay it any, but accidents do happen. And it wouldn't have 
made any difference, as I stated before, if we had had better 
technology, more technology, more safety, inspections, whatever 
the case may be. There was still a breakdown when that pilot 
got the transfer order and didn't make that jump. He didn't 
make that jump. And those of us who are pilots have been in 
that situation before, and then you've got to backtrack. But, 
regardless, there was a mistake.
    And, Mr. Chairman, I appreciate the opportunity to say 
something, but I do get a little bit frustrated. I just want us 
to use a little bit of common sense when we are looking into 
these things. And please remember, too, that mistakes happen, 
unfortunately.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the gentleman from New York, Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman, and thank you for 
holding this important hearing--to us from New York, of course, 
and to our Nation as a whole. I want you to understand that I 
am a fan like everyone else of the aviation industry, and the 
men and women who work in it, and I think it is a very safe 
industry.
    Mr. Zuccaro, it is nice to see you again. I hope you 
remember me from the New York City Council, because I was one 
of those community--but I have a problem and I want to talk to 
you about it, and I want you to address it for me if you can.
    Mr. Zuccaro. I will be more than happy to help you.
    Mr. McMahon. I appreciate that. But the problem is, I have 
been talking to you about it for about 12 years.
    Mr. Zuccaro. Which?
    Mr. McMahon. The irony--the north shore of Staten Island. 
The irony--you all should know that the reason I am sitting 
here now is because of helicopters flying over Staten Island, 
New York, because I started as a community activist trying to 
get them not to fly over residential neighborhoods.
    They are still flying over residential neighborhoods, and 
it is a quality-of-life issue; that is how it got kind of 
started, because you are sitting in your house and helicopters 
are buzzing overhead all day long, flying back and forth from 
Linden or Teterboro or Newark over Staten Island where 500,000 
people live.
    And I think you will all agree with me that this tragedy--I 
also agree with my colleagues, it is a terrible tragedy, and we 
mourn those who were lost. It was human error, and accidents 
happen, and we are sorry for that; but if that helicopter or 
that plane had been over land and landed on homes or schools or 
hospitals, it would have been much worse.
    And what people continue to do in New York that drives us 
crazy is, when you have the option to fly over water, you fly 
over land. Now, thank God, this accident happened over water; 
thank God, the 1549 was able to land in water. But I think you 
all will agree--if you can just shake your heads--if it 
happened over land, it would have been much worse, right? You 
all agree with that?
    So in all these plans and all this talk about lowering the 
airspace, what are you doing in places like New York where you 
have millions of people living or residential areas, 
concentrations like Staten Island and Brooklyn, New York, what 
are you doing to try to make sure that if, God forbid, that 
accident does happen, people on the ground don't suffer 
injuries as well? Because right now you are not doing it.
    Mr. Zuccaro, why don't you start?
    Mr. Zuccaro. I would like to, Congressman.
    The reference to Staten Island routing: Obviously, you are 
familiar with the fact that the route used to go right across 
the middle of Staten Island. And I know, I personally came down 
there, met with you and the industry, voluntarily changed the 
route and established a route along the shore of the Staten 
Island, around the water; and that is actually what is printed 
on the chart.
    I am respectful of the fact, if you have an issue now where 
you are still having helicopter activity--I am serious--we will 
get reengaged.
    The other issue of the water routes: The reason that the 
helicopter was where it was on the tour is because several 
years ago the tour industry and the helicopter community got 
together and established that the routes would go along that 
shoreline up and down the river. And that is where the 
helicopter is going to be if it is on those tours. It will be 
over the water, it won't be over the land. And that is why the 
routes run up and down on the chart along the river over the 
water on each shore.
    We are very respectful and agree with you completely that 
we want to minimize flights over land, and we try to use the 
water to the maximum capability that we can. And if you look at 
the chart, all of the routes basically take advantage of the 
rivers and the waterways around New York City, and that is how 
we fly, over the water.
    Mr. McMahon. I know. And you and I worked on that. But 
unfortunately, the industry is not following it. So every day--
do you know why I know? Because I live right there where they 
fly over every day.
    Mr. Zuccaro. I am not going to kid you. I am upset to hear 
this.
    Mr. McMahon. I have met with your successor, I have been to 
the airports, and I have met with the pilots of the small 
airplanes and the helicopters, and we have asked them to 
respect that, but it is not happening.
    So I am asking the FAA if there is a way that we can put in 
the rules to mandate where there are--to mandate when there are 
options to use water, or land where there are not a lot of 
people, to use it.
    And the other thing is, if you are going to bring these 
flights down to a lower altitude, what about the people on the 
ground who, from a quality of life, first and foremost--or not 
first and foremost, but it is important that if you are in your 
house and there are 20 flights of helicopters per hour going 
over your house, it is a quality-of-life issue--I think you 
will grant that--when they are at 500 feet, and also for 
safety.
    Can we mandate in an area like New York that when there are 
options to stay away from people, that we do it?
    Mr. Krakowski. The task force recommendations are very 
specific to operations over the river. And a couple of reasons 
here.
    As Mr. Zuccaro pointed out, the accident did occur over the 
river. And one of the things we saw was a mixing of traffic in 
a concentrated area. We took the airspace, provided the 
mandatory change to separate altitudes between faster-moving, 
slower-moving aircraft, as well as horizontal, and kept that 
over the river.
    It is unusual for light airplanes to fly over the populated 
areas. We don't see that typically in our radar tracking data 
unless the aircraft are actually coming out and back to 
Teterboro for the purpose of landing.
    It is inherent in a single-engine airplane pilot to not 
want to fly over congested areas, because if your engine fails, 
you don't have any options. So it is a normal practice for 
light airplane pilots with a single engine to not fly over the 
congested areas. And we actually see that in the radar area in 
New York, unless you are going in and out of Teterboro.
    Mr. McMahon. And what about Linden, Linden Airport?
    And I want to be clear, Mr. Zuccaro--I know I am a little 
passionate about this--I want to thank you publicly, because 
when you were at the head of Eastern Regional you were very 
responsive and you did help change the charts.
    Unfortunately, they are not being followed. You were great 
about it.
    Mr. Zuccaro. Can I offer this? I will personally get 
reengaged and come up and meet with you and ensure that the 
operators will be there, and we can address this again.
    Mr. McMahon. I appreciate that. And I know your word is 
good because you have done it in the past.
    But my question then to the FAA is, why can't you mandate 
that for helicopters as well when there are options, to mandate 
to not fly over land when you have an option not to, and not to 
fly over residential areas when you have an option not to, not 
to fly over schools when you have an option not to, not to fly 
over hospitals when you have an option not to. Why can't we do 
that?
    And are you taking into account, when you are bringing 
these aircraft and these helicopters lower, what impact it will 
have on the residential communities?
    Mr. Krakowski. Again, the lowering of the traffic, 
particularly the local traffic, is designed to be out over the 
river; it is not designed to be lowering it over congested 
areas.
    Mr. McMahon. I am looking for the word "mandated" to be 
when there is that option. Can you not tell the helicopters to 
stop flying and the planes not to fly over residential areas, 
unless it is like an emergency?
    Mr. Krakowski. I mean rule-making----
    Mr. McMahon. Because, am I correct, in New York I can just 
get in my helicopter really and just fly wherever I want to, 
right?
    Mr. Krakowski. Right.
    Mr. McMahon. Do you think it is safe that if I am, you 
know, flying somebody to Atlantic City so they can go gambling 
that I should fly over residential areas when I have an option?
    You are not hearing me about what a safety concern this is, 
and I want to know what you are going to do.
    Mr. Krakowski. I think working with the local community, as 
Mr. Zuccaro was offering, is the right approach.
    I am also aware that some of those operations are 
lifesaving operations with medical helicopters and things like 
that.
    Mr. McMahon. Listen, I am on the ground, I see everyone, I 
can read their numbers. I know what they are doing. They are 
taking commuters back and forth and they are not lifesaving.
    I know the difference between a Coast Guard or a New York 
City police helicopter or an ABC News helicopter going back to 
its airport or back to its hangar. I know the difference.
    Mr. McMahon. I know the difference.
    Mr. Kragh. Congressman, may I address you, sir?
    Thank you.
    I am certain that Mr. Zuccaro or perhaps Mr. Krakowski 
might not be aware of what you are talking about, but in Newark 
tower I witness it every day. I believe what you are talking 
about has become an unintended consequence of the airspace 
redesign off of Newark.
    Because when we use those departure headings, helicopters 
can no longer take what is on the charts as the Linden route 
where they fly up the train tracks west of Newark Airport and 
then go over Newark Airport generally at 1,400 feet or above. 
When we are doing that, they can't be there, because they will 
be in conflict with planes. So the helicopters have reverted to 
sort of an old version of the Staten Island route.
    I was there when the route was there years ago and when it 
was removed. But they reverted to using that pattern because 
they need to get to and from Linden Airport.
    Mr. McMahon. I appreciate that. I appreciate what you do 
every day. But they could go over--even within that extended 
Newark buffer zone, if you will, they could go over the Arthur 
Kill. They would not be interfering with the Newark airspace, 
yet they choose in my opinion to go over the land, and that is 
a terribly unsafe situation.
    Mr. Kragh. Yes, I have family in Staten Island, and they 
often complain to me, and they live all the way down by the 
outer bridge.
    But we do need to come up with some sort of agreement. 
Because, actually, if they came out of Linden and went up the 
Kill, they would get all the way to the Goethals Bridge, which 
is real close to the Newark Airport; and we would have a lot of 
conflicts between departing aircraft and landing aircraft, 
depending on the configuration in those aircraft. So perhaps 
altitude is part of the situation, getting them higher sooner 
off of Linden whenever we can.
    Mr. McMahon. They can also go south of your relatives, 
Verrazano and over the Verrazano Bridge, safe over water the 
whole time.
    Mr. Kragh. And as a controller in the area I will take them 
whatever way they ask to go. I don't have the power to restrict 
them. That is for the rulemakers to decide, and then I do what 
I am told to do. But I can definitely vouch for what you are 
saying.
    Mr. McMahon. Thank you both. It goes back to my point that 
the FAA should be looking to make rules that mandates the safer 
route when there isan option.
    Mr. Krakowski. What I would like to offer, sir, is to get 
together, get the FAA people who would be appropriate along 
with Mr. Zuccaro's people, Mr. Kragh, and the NATCA controllers 
to talk this over with you.
    Mr. McMahon. Thank you very much and thank you for the 
allowance of extra time, Mr. Chairman.
    Mr. Costello. That is exactly what I was going to suggest, 
Mr. Krakowski, that you convene a meeting with Mr. Zuccaro and 
the controllers and others to try and do exactly what 
Congressman McMahon is trying to address here.
    Any Members have any final questions before we conclude the 
hearing?
    If not, let me thank all of the witnesses for appearing 
here today.
    Again, I think many of the Members on the Subcommittee have 
commended the FAA for acting quickly. It is not something that 
they have always done in the past. But we commend you, Mr. 
Krakowski, and the agency for acting quickly.
    Also, for the task force, we hope that you, in fact, will 
get the rulemaking done by the aggressive schedule that you 
have set out by the middle of November; and we look forward to 
you looking at other corridors throughout the country as you 
committed to do and not only the FAA but the task force as 
well.
    So, again, we thank you all for appearing here today, for 
offering your testimony, and the Subcommittee stands adjourned.
    [Whereupon, at 12:05 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

</pre></body></html>
